2311 Douglas Street

COCKLE

Legal Briefs

Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-670
ARNOLD FLECK,
Petitioner,
Vv.
JOE WETCH, et al.,
Respondents.
AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

L Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF IN OPPOSITION FOR PETRA MANDIGO HULM in the
above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to

the following:

SEE ATTACHED

To be filed for:
JAMES E. NICOLAI
Counsel of Record
OFFICE OF ATTORNEY GENERAL
500 .N. 9th Street
Bismarck, ND 58501
(701) 328-3640
jnicolai@nd.gov

Subscribed and sworn to before me this 30th day of January, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ee i EC Ollie Qudeaw-h, Chole

My Commission Expires Nov 24, 2020

 

Notary Public

39378
SERVICE LIST

Timothy Mason Sandefur
Counsel of Record

The Goldwater Institute

500 East Coronado Road
Phoenix, AZ 85004
602-462-5000
tsandefur@goldwaterinstitute.org

Counsel for Arnold Fleck

Sarah Elaine Harrington

Counsel of Record

Goldstein & Russell, P.C.

7475 Wisconsin Avenue, Suite 850
Bethesda, MD 20814
202-362-0636
sharrington@goldsteinrussell.com

Counsel for Joe Wetch, Aubrey Fiebelkorn-Zuger,
and Tony Weiler
